OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/MALI’S
MALARIA PROGRAM


AUDIT REPORT NO. 7-688-11-009-P 

JUNE 15, 2011





DAKAR, SENEGAL 

 
 


Office of Inspector General


June 15, 2011

MEMORANDUM

TO:                 USAID/Mali Mission Director, Rebecca Black

FROM:               Regional Inspector General, Dakar, Gerard Custer /s/

SUBJECT:            Audit of USAID/Mali’s Malaria Activities (Report Number 7-688-11-009-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in Appendix II.

The report includes 12 recommendations. On the basis of actions taken by the mission and
supporting documentation provided, we determined that final action has been taken on
Recommendations 7, 9, and 10, and management decisions have been reached on
Recommendations 1, 2, 3, 4, 5, 6, 8, 11, and 12. Please provide the Audit Performance and
Compliance Division in the USAID Office of the Chief Financial Officer with the necessary
documentation to achieve final action.

I appreciate the cooperation and courtesy you extended to my staff during the audit.




U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 4 


     Some Reported Results and Targets Were Inconsistent ............................................ 4 


     Mission’s Monitoring of Program Performance Was Weak......................................... 6 


     Some Reported Results Were Inaccurate................................................................... 9 


     Controls Over the Receipt and Distribution of Nets Were 

     Inadequate and Inconsistent ..................................................................................... 12 


     USAID’s Sponsorship of Spraying Was Not Recognized.......................................... 13 


Evaluation of Management Comments....................................................................... 15 


Appendix I – Scope and Methodology ........................................................................ 17 


Appendix II – Management Comments ....................................................................... 20 



  Abbreviations

  The following abbreviations appear in this report:

  ADS        Automated Directives System
  FY         fiscal year
  JSI        John Snow Inc.
  PKC II     CARE's Keneya Ciwara II Program
  PMI        President’s Malaria Initiative
  PMP        performance management plan
  PPR        performance plan and report
  PSI        Population Services International
  RDT        rapid diagnostic test
  RTI        Research Triangle Institute International
  USG        U.S. Government
SUMMARY OF RESULTS

Malaria is a major cause of morbidity and mortality in Mali. Mali’s Ministry of Health reported
that in 2009 the disease accounted for 45 percent of outpatient visits and 62 percent of reported
deaths in children under the age of 5, making it the leading cause of death for this age group.

Mali is one of 15 original focus countries benefiting from the President’s Malaria Initiative (PMI),
a 5-year, $1.2 billion U.S. Government initiative led by USAID and implemented with the
Centers for Disease Control and Prevention and others. PMI aims to reduce malaria-related
mortality in each of the focus countries by 50 percent by reaching 85 percent of the most
vulnerable groups—children under 5 and pregnant women—with proven preventive and
therapeutic interventions. These interventions include insecticide-treated bed nets (bed nets),
artemisinin-based combination therapy (combination drugs) to treat malaria, intermittent
preventive treatment for pregnant women (preventive treatment), and indoor residual spraying
with insecticides to kill mosquitoes that spread malaria (spraying).

During fiscal years (FYs) 2009 and 2010, the mission worked to implement PMI activities
through partnerships with 15 prime partners. The audit covered activities implemented by the
four partners listed in Table 1, which accounted for about 78 percent of the mission’s malaria
portfolio during FYs 2009 and 2010.

                                       Table 1. Audited Programs

                                                                          Expended for
                                                                                                Task
                                                                            PMI in FYs
    Implementing Partner                Program Description                               Order/Agreement
                                                                          2009 and 2010
                                                                                               Dates
                                                                                ($)
                                JSI’s DELIVER Project procures bed
                                nets, combination drugs, preventive                          Task Order
  John Snow Inc. (JSI)                                                      8,658,156
                                treatment, and other drugs for treating                    4/2007–4/2012
                                severe malaria.
                                PSI primarily transports nets for                           Cooperative
  Population Services
                                distribution to targeted groups—infants     1,596,000       Agreement
  International (PSI)
                                and pregnant women.                                       10/2008–9/2011
                                RTI’s indoor residual spaying program
  Research Triangle Institute                                                                Task Order
                                targets households in the Bla and           4,850,000
  International (RTI)                                                                      9/2009–9/2014
                                Koulikoro Districts.
                                The Keneya Ciwara II Program (PKC                           Cooperative
  CARE                          II) works to increase the use of health     2,650,000       Agreement
                                services at community health centers.                     10/2008–9/2011


USAID/Mali’s FY 2009 and 2010 obligations for PMI were $14.9 million and $14.5 million
respectively. The mission expended $13.7 million during FY 2009 and $11.6 million during FY
2010 for PMI activities.

The objective of the audit was to determine whether USAID/Mali achieved its PMI goals of
preventing and treating malaria.

The audit determined that the mission partially achieved its main goals of preventing and
treating malaria. As of January 31, 2011, the mission had used more than 80 percent of nearly


                                                                                                       1
$24 million to procure malaria commodities (mainly bed nets and combination drugs) under the
DELIVER Project, and had successfully completed its main task of delivering more than
800,000 USAID-funded nets to health facilities throughout the country. Our visits to five health
facilities confirmed that thousands of nets were being distributed to individuals in selected
communities.

Regarding spraying, RTI noted achievements in spraying and training, and community doctors
credited RTI with lowering malaria-related fatalities, but data problems clouded the picture
(Table 2).

                     Table 2. Number of Structures RTI Reported Spraying

                                                                                  Result as % of
      FY           Target           Result       Result as % of Target          Total Structures in
                                                                                 Spraying Area*
    2009       Not established      126,922               N/A                            93.5
    2010          170,000           127,273                75                            97
* After 2010 target was set, the total number of structures was determined to be 130,842. In 2009, the
total number of structures was 135,698.

The apparent spraying shortfall in 2010—reaching only 75 percent of the target number of
structures—resulted from the target’s being set too high. The target was based on an
(unknown) inflated estimate of total structures in the two districts selected for spraying; in 2010
the actual total was determined to be 130,842, making the original target impossible to reach.

The program also trained 464 people in 2010 to deliver spraying, exceeding its goal of 424.
Additionally, interviews with district doctors and residents confirmed that the number of
complicated malaria cases had sharply decreased since the start of the spraying program in
2008. One doctor reported that there were 72 malaria fatalities in his subdistrict in 2007, but
only 5 fatalities in the entire district in 2010. He attributed this decrease to the spraying program.

Nevertheless, reported spraying results were unreliable because of the difficulties involved in
compiling large amounts of data, insufficient data reviews, and confusion about the definition of
the word “structure” when tracking the number of structures sprayed. Specifically, the audit
noted that some results were double counted and that spray operators were inconsistently
applying the term “structure,” making it difficult to confirm the actual results achieved.

Regarding CARE’s PKC II program, designed to increase the use of community health facilities
and to improve household health practices, interviews with health facility staff and program
participants indicated that the program has had a positive impact. For example, one doctor at a
community health center reported that more patients were coming more often to his clinic as a
result of the work done by CARE. However, the extent of that impact and whether it met or
exceeded program targets was unclear because the program did not have a full set of
indicators, targets, and results for 2009 or 2010. In addition, the program did not contribute to
any PMI indicators or to the mission’s performance indicators for either year.

Notwithstanding the achievements highlighted above, the audit found that:

     Some reported results and targets were inconsistent (page 4).




                                                                                                         2
   The mission’s monitoring of program performance was weak (page 6).


   Some reported results were inaccurate (page 9). 


   Controls over receipt and distribution of nets were inadequate and inconsistent (page 12). 


   USAID’s sponsorship of spraying was not recognized (page 13). 


The report recommends that USAID/Mali:


1. 	Review its indicators closely to ensure that the indicator definition and wording are
    consistent, establish and update targets for each indicator, and report its results accurately
    based on the correct reporting period (page 6).

2. 	 Include other performance indicators in the performance management plan that measure
     the achievements of its malaria portfolio (in addition to those required by the President’s
     Malaria Initiative) (page 8).

3. 	Require CARE to report results on malaria-related indicators and targets included in the
    2011 work plan (page 9).

4. 	Develop and implement a plan with RTI to record data accurately and minimize the
    possibility of human errors such as double counting (page 12).

5. 	 Establish and implement a plan to ensure that all spray operators are using a consistent
     definition of a structure when tallying results (page 12).

6. 	 Verify the malaria-related results reported in CARE’s FY 2010 annual report (page 12).

7. 	 Verify that JSI has accurately recorded, reported, and filed all orders that have been placed,
     and develop a plan to ensure that future discrepancies are avoided (page 12).

8. 	 Complete data quality assessments for all indicators reported in its annual performance plan
     and report (page 12).

9. 	 Develop a procedure to document all site visits and require that visits include data quality
     testing and verification when possible (page 12).

10. Develop and implement a plan to reinforce the skills of the staff at health-care facilities to
    enable them to maintain accurate inventory records and manage stock properly (page 13).

11. Develop and implement standard procedures for net distribution and receipt, and verify that
    the procedures are applied uniformly at all health facilities (page 13).

12. Develop and implement a plan with RTI to ensure that beneficiaries are aware that indoor
    residual spraying is provided by the American people (page 14).

Detailed findings appear in the following section. The audit’s scope and methodology are
described in Appendix I. Our evaluation of management comments is on page 15, and full text
of management comments appears in Appendix II.



                                                                                                   3
AUDIT FINDINGS 

Some Reported Results and Targets
Were Inconsistent
USAID’s results-oriented approach to management calls for its managers to consider
“performance information to assess progress in achieving results and to make management
decisions on improving performance.”1         USAID’s Automated Directives System (ADS),
            2
Chapter 203, explains that sound decisions require valid, reliable, and accurate information,
and data should be of “sufficiently high quality to support the appropriate level of management
decisions.” The ADS chapter continues by stating that performance data should be as
“complete and consistent as management needs and resources permit.”

However, the mission’s performance plan and report (PPR), the PMI annual report, and the
mission’s performance management plan (PMP) were reporting inconsistent results. Results for
several of the 13 PMI indicators were inconsistent among the three reports. Auditors found at
least one reporting error in each of the three sources. Although the PMI annual report is based
on the calendar year, whereas the PPR and the PMP are based on USAID’s fiscal year (from
October 1 to September 30), timing differences were not cited as reasons for the differences in
Tables 3 and 4.

                  Table 3. Malaria Indicators and Results Reported in the 2010 

                               PPR, PMP, and PMI Annual Report 


                                          PPR          PMI Annual Report        PMP
                 Indicator
                                         FY 2010       Calendar Year 2010      FY 2010
     Number of bed nets purchased
     with U.S. Government (USG)          2,110,000           2,110,000       1,500,000
     funds
     Number of combination drugs
     purchased with USG funds that         728,699                     0      Not reported
     were distributed
     Number of rapid diagnostic tests
     (RDTs) purchased and distributed      500,000             527,500         500,000
     through USG support

Explanations for the inconsistencies in the reported results follow:

	 For the number of nets purchased, 2,110,000 was correctly reported in the PPR and in the
   PMI annual report, but incorrectly reported as 1,500,000 nets in the PMP and as 570,000 in
   the implementing partner’s annual report (not shown above). Records indicated that two
   orders were made during FY 2010, the first for 570,000 nets and the second for 1,540,000
   nets. The mission explained that the 1,500,000 figure used in the PMP was an estimated
   number for the second order, but failed to take into account the first order. The partner did
   the exact opposite by excluding the second order, presumably since it had not yet arrived.

1
    ADS 203.3.2.2.b.
2
    ADS 203.3.5.


                                                                                              4
	 Regarding combination drugs, the mission explained that none had been distributed.
   Records indicated that half of this order arrived in late December 2010, yet the other half
   had not yet arrived as of March 2011. Although 728,699 combination drugs were reportedly
   purchased on November 2010, the mission mistakenly reported these combination drugs as
   purchased and distributed in the FY 2010 PPR.

	 For the number of RDTs purchased and distributed, the PMI annual report correctly reported
   527,500 for FY 2010, noting that the figure included 27,500 RDTs that were, according to
   the mission, procured the year before. Therefore, the 500,000 figure reported (without
   mention of the prior year procurement) in the PPR was incorrect.

                Table 4. Malaria Indicators and Results Reported in the 2009 

                             PPR, PMP, and PMI Annual Report 


                                                                 PMI 2009
                                                   PPR                           PMP
                      Indicator                                Annual Report
                                                  FY 2009                       FY 2009
                                                               Calendar Year
       Number of bed nets purchased with
                                                  615,442          600,000      600,000
       USG funds
       Number of bed nets purchased with
       USG funds that were distributed to       Not reported       600,000      600,000
       health facilities
       Number of combination drugs purchased
                                                  353,555          330,589      330,589
       with USG funds that were distributed
       Total number of residents of sprayed
                                                Not reported       497,122      457,374
       houses
       Number of RDTs purchased with USG
                                                Not reported           41,500    31,380
       funds
       Number of health workers trained in
                                                Not reported             142        60
       preventive treatment with USG funds

Explanations for the inconsistencies in the reported results follow:

	 For the number of bed nets purchased, 600,000 was correctly reported in the PMP and PMI
   annual report, yet the FY 2009 PPR reported 615,442 (the source of this mistake was not
   explained).

	 For the number of bed nets distributed, although the partner reported that 597,500 nets (not
   shown in Table 4), USAID incorrectly reported in the PMP and PMI annual report that all
   600,000 nets purchased were distributed.

	 For the number of combination drugs distributed, although only minor differences were
   noted in the three reports, the mission did not provide an explanation for these differences.

	 For the number of residents of sprayed houses, the PMP correctly reported 457,374, but the
   PMI annual report reported 497,122 because it reported the entire targeted population.

	 For the number of RDTs purchased, the auditors verified that the PMI annual report correctly
   reported 41,500. No explanation was provided for the 31,380 figure reported in the PMP.



                                                                                              5
	 For the number of health workers trained, no explanation was provided for the
   inconsistencies between the PMP and the PMI annual report.

Likewise, the audit team observed inconsistencies in the establishment of 2010 targets.
Specifically, for the number of nets purchased, the PPR reported a target of 570,000, the PMP
1,240,000, the malaria operational plan 1,540,000, and the partner 900,000 nets. As another
example, for the number of combination drugs distributed, the PPR reported a target of 500,000
while the PMP reported only 400,000. We were unable to compare 2009 targets because they
were not listed in the PMP.

Reporting inconsistencies occurred because the definitions and wording of some indicators
were confusing. First, the PPR used only one indicator to track people trained in malaria
treatment or prevention, while the PMP and the PMI annual report both used four indicators to
indicate type of training: spraying, preventive treatment, combination drug use, and malaria
diagnosis. The mission explained that the 2010 PPR result for the number of people trained in
malaria treatment or prevention was the sum of those trained in spraying and those trained in
preventive treatment. For an outsider, it is difficult to determine how these indicators are
related, if at all. Secondly, the PMP reports the number of sulfadoxine-pyrimethamine tablets
purchased, while the PMI annual report measures sulfadoxine-pyrimethamine treatments
distributed (one treatment consists of three tablets of this preventive drug). Thirdly, there was
confusion between the number purchased and the number distributed of drugs and bed nets.
Finally, there is a distinction between nets and combination drugs distributed and purchased by
other partners and those purchased with U.S. Government funds. PSI’s 2010 annual report
correctly reported the distribution of 660,790 nets provided by the Global Fund to Fight AIDS,
Tuberculosis and Malaria. During its portfolio review, the mission reported that these were
USAID-purchased nets, but no USAID nets had been distributed at all. As described further in
the findings below, the mission’s monitoring and evaluation has been weak for the past 2 years,
and data quality assessments have not been conducted regularly.

Reporting results that are inaccurate or that lack needed context can undermine USAID’s
credibility and impair USAID’s ability to secure the resources it needs to accomplish its mission.
The malaria program relies on accurate data to demonstrate progress toward goals. However,
because of the inconsistencies in the results reported, the mission’s results for malaria activities
may not accurately reflect USAID’s achievements. To ensure that USAID/Mali reports accurate
and reliable data and to improve the integrity of the reporting process, we make the following
recommendation.

   Recommendation 1. We recommend that USAID/Mali (1) review its indicators closely to
   ensure that the indicator definition and wording are consistent, (2) establish and update
   targets for each indicator, and (3) report its results accurately based on the correct
   reporting period in the mission’s performance plan and report, the President’s Malaria
   Initiative annual report, and the performance management plan.

Mission’s Monitoring of Program
Performance Was Weak
ADS Chapter 203, "Assessing and Learning," provides guidance to USAID missions on
determining how well activities are achieving their intended results. Each assistance objective
team must prepare a complete PMP for each assistance objective, or program area, it is
responsible for and include all indicators that will be used to assess progress over the life of the


                                                                                                  6
program.3 ADS explains that USAID “should use performance information to assess progress in
achieving results and to make management decisions on improving performance.”4 ADS further
states that targets should be “ambitious, but achievable given USAID (and other donor) inputs.
On the other hand, targets that are set too low are also not useful for management and
reporting purposes.”5

The health team’s PMP was not formally updated and contained errors as described in the
findings above (specifically Tables 3 and 4). The team had not included 2010 results for 10 of
15 indicators in the PMP. On the day of the exit conference, the health team’s monitoring and
evaluation specialist provided an unofficial, updated version of the PMP, which included 2010
results but still contained reporting errors. In the initial PMP, we noted that two indicators about
nets and combination drugs distributed and purchased by other donors were not used at all, and
2009 targets were not shown for any of the indicators. Furthermore, the PMP included only
indicators that were required by PMI, excluding others that could have assisted the health team
in monitoring the progress of its malaria activities.

The mission measured some activities with one to four PMI indicators, while other activities,
such as PKC II, were not being measured by any PMI indicators. The mission should be
measuring an activity’s progress more closely through either the health team’s PMP or activity-
specific PMPs. In addition to the weaknesses in the health team’s PMP, we noted that activity-
specific PMPs were not formally established, updated, or monitored, as explained below for two
of the implementing partners.

CARE. While CARE was regularly reporting most of the requested information on PKC II, it did
not consistently report data against targets for custom indicators for its malaria activities. CARE
and the mission provided several sets of indicators, some with and without targets, and several
sets of results. However, there was no consistent list of indicators, targets, and actual results
for either year of the program for malaria activities. For example, the program’s FY 2010 work
plan included a list of both outcome and output indicators for each malaria-related activity, and
the output indicators all had specific targets. However, the annual performance report
contained only the list of activities and some related results. The targets from the work plan
were not listed, and the results reported did not always correspond to the output indicators listed
in the work plan. Additionally, the 2009 work plan listed only activities (no indicators or targets).
Finally, the 2009 annual report included a list of indicators and actual results, but the target
column was blank.

The mission identified these problems in early 2010 and has been working to improve the
performance monitoring of PKC II. In August 2010, the mission modified the award agreement
with CARE to include specific objectives, output indicators, and reporting requirements.
Unfortunately, even the modified agreement contained no specific indicators and targets for
malaria activities, despite instructions in the PMI document “Monitoring and Evaluation
Indicators to be Used within the President’s Malaria Initiative” to “develop a useful indicator to
monitor community health education or information activities.” In November 2010, the mission
performed a portfolio review of the accomplishments of the PKC II program in an attempt to set
up a monitoring framework that would allow for better performance management. This portfolio
review introduced a list of 12 performance indicators, but only 1 was directly related to malaria,
and it lacked a target. In its fiscal year 2010 annual report, CARE attempted to use the data in

3
  ADS 203.3.3 and ADS 203.3.3.1.
4
  ADS 203.3.2.2.b.
5
  ADS 203.3.4.5.


                                                                                                   7
its own internal tracking database to report on indicators requested by USAID, but the audit
team determined that the results provided were not adequate for efficient performance
monitoring because they were not compared to work plan targets. CARE and USAID/Mali are
working with the same 2011 work plan and indicators, and the mission anticipates receiving a
list of results at the end of the year that can be compared with targets established at the start of
the year.

PSI. Although PSI tracks many nonmalaria indicators, it primarily reports on only three
indicators related to malaria: the number of nets distributed, the number of radio spots, and the
number of TV spots per year (Table 5).

                     Table 5. PSI Malaria Targets and Reported Results

                                                          FY 2009               FY 2010
              Indicator             Annual Target
                                                       Reported Result       Reported Result
     Number of nets distributed         900,000            615,442                    0
     Number of BCC radio spots           20,000            107,364                4,585
     Number of BCC TV spots                 120                 510                  68

As indicated in the table, the FY 2009 results were either significantly less than or more than the
annual established targets, but the mission had not formally adjusted the annual targets to
reflect realistic expectations. For management and reporting purposes, targets should reflect
realistic expectations. Because PSI’s activity ends on September 30, 2011, and focus will be
placed on the follow-on award, no recommendation will be made regarding PSI targets.

The mission acknowledges the weaknesses described above and has been actively working on
updating its PMP and improving its monitoring and evaluation. The health team leader
explained that monitoring and evaluation was much weaker in the past, but that her team has
made significant progress in the past 2 years. The mission has revised the results framework,
developed a user’s manual for implementing partners, and modified some of its largest award
agreements to include specific indicators for which recipients must report data. The health team
leader also added that her team has made improvements such as creating new indicators for its
PMP, improving record keeping, and documenting key meetings with partners.

A key factor contributing to the problems identified above was the lack of adequate staffing at
USAID/Mali. The mission has been severely understaffed for the past 2 years, requiring many
people to work long hours over long periods of time. In addition, the Centers for Disease
Control and Prevention’s resident adviser (an important adviser on the mission’s malaria
activities) was in-country only between March 2009 and August 2010. This key position was
unfilled in 2008 and parts of 2009, 2010, and 2011, which greatly contributed to weaknesses in
USAID’s malaria activities. Fortunately, the staffing shortages have been addressed as several
new hires have recently arrived and others are scheduled to arrive in the upcoming months.

Without an updated PMP and a common understanding with the partners as to what the goals
are—i.e., indicators, targets, and results—the mission may not be adequately monitoring and
evaluating its activities. Unreliable data can undermine the appropriateness of management
decisions and managers’ abilities to evaluate the effectiveness and efficiency of their programs.

   Recommendation 2. We recommend that USAID/Mali’s health team include other
   performance indicators in the performance management plan that measure the



                                                                                                  8
    achievements of its malaria portfolio (in addition to those required by the President’s
    Malaria Initiative).

    Recommendation 3. We recommend that USAID/Mali require CARE to report results
    on malaria-related indicators and targets included in the 2011 work plan.

Some Reported Results Were
Inaccurate
USAID’s results-oriented approach to management calls for its managers to consider
performance information when making decisions. Performance data should be of sufficiently
high quality to support the appropriate level of management decisions and should be as
complete and consistent as management needs and resources permit.6 ADS Chapter 2037
states that USAID missions can strengthen performance management by involving partners in
the performance management process. This includes collecting, interpreting, and sharing
performance monitoring information and experience, jointly defining a critical set of performance
indicators, and helping partners develop their own performance management and evaluation
capability. Failure to have consistent performance indicator reporting systems is not only
inefficient but also introduces additional risk of reporting erroneous results.

Additionally, ADS states that USAID performance data “reported to Washington for Government
Performance and Results Act (GPRA) reporting purposes or for reporting externally on Agency
performance must have had a data quality assessment at some time within the three years
before submission.” This section of ADS recommends data quality assessments to inform
missions of data strengths and weaknesses and of the extent to which data can be trusted when
reporting and making management decisions.8

The audit team noted problems with the results reported by three implementing partners.

RTI. RTI’s spraying program data was not completely accurate because the process for
collecting this data was difficult, and one indicator was not clearly defined.

The process for collecting spray data is as follows. Spray operators use operator sheets to
report the data for the number of structures sprayed and people protected. In 2010, spray
operators provided over 31,000 spray operator sheets. At the end of each day, spray operators
submit operator sheets to their team leaders (each spray team leader is responsible for five or
six spray operators). The team leader verifies the summations from the daily operator sheets,
consolidates the data, and then prepares a summary reporting sheet. He or she then provides
the summary sheet and original operator sheets to an RTI staff member at the district level. The
RTI staff person then enters the data into a database.

Of the 100 spray data sheets reviewed, the audit team noted immaterial arithmetic errors on 13
sheets. Although the errors were small (generally only over- or underreported by one or two),
the fact that 13 percent of the sheets reviewed contained errors indicated that the problem could
be pervasive. In addition, the audit team noted 248 instances in which an RTI staff person



6
  ADS 203.3.5.
7
  ADS 203.3.2.2.c.
8
  ADS 203.3.5.2.


                                                                                               9
mistakenly entered a daily spray operator sheet into the database twice. Similar problems were
noted in a data quality assessment conducted in June 2010.

RTI staff acknowledged these problems and even took immediate action during the audit to
review the errors and design policies to prevent them from recurring. This included installing a
feature in the Access database that would not permit data to be entered more than once for the
same concession9 and a plan to intensify training supervision when instructing operators on
data collection.

The process-related problems with data accuracy resulted from having hundreds of spray
operators reporting data, not having enough supervisory reviews, and not having a control to
prevent duplicate entries in the Access database.

The other reason for inaccurate data was the lack of a clear definition of “structure.” In three of
the seven concessions visited, the number of structures that the beneficiaries reported as
sprayed did not match the figure reported on the spray operator sheets. RTI staff and the spray
operators interviewed explained that spray operators may count structures differently. For
example, if two apartments in one structure are inhabited by two separate families, the dwelling
(like the one shown in the photo below) could be counted as two structures by one operator and
as one structure by another operator. Simply stated, the word “structure” is difficult to define
when there is such a wide variety of building types and divisions. This problem has been noted
in other PMI-related audit reports issued by USAID’s Office of Inspector General.




      This dwelling with two doors in Kamona may be reported as one or two structures,
      depending on the spray operator. (Photo by Office of Inspector General, May 22, 2011)



9
    In Mali, extended families live together in a group of several structures known as a concession.


                                                                                                       10
CARE. Some data reported by CARE was problematic due to inadequate reporting guidance
and systemic underreporting. For example, the data for one important indicator, households
reached by community health workers, was not accurate. The PKC II 2010 work plan included
a target of 700,000 households reached by community health workers, and the program
reported reaching 335,328 households. CARE officials reported that, although they suspected
that the actual number of households reached was much higher than this, they could report only
this number because this was all that was formally reported by community health workers.
CARE believed that many households were being reached but that the community health
workers were not formally reporting all the visits.

The problems with data accuracy stemmed from the difficulty in gathering results from hundreds
of community health workers working across a vast country. Interviews with these community
health workers confirmed that they often did not report data because of the distance they were
required to travel to attend the monthly data reporting meetings. CARE’s lack of clear
instructions on how to report data also contributed to these problems. In 2010, the community
health workers were using a reporting booklet prepared by another entity, and the reporting
document had only enough spaces for reporting data for 2010. Consequently, the workers were
devising their own methods to track their numbers of visits and the topics discussed with each
household in 2011. The lack of a consistent data reporting tool could have contributed to
incomplete data reporting.

JSI. The audit revealed that records of some items procured may be flawed because the
invoices retained by the mission did not correspond to reports from JSI. JSI implements the
DELIVER Project, which is a worldwide activity managed from Washington. The mission places
malaria-related orders with DELIVER staff members, who in turn process the orders and send
the commodities to the mission. The auditors reviewed some items listed from 20 orders that
the mission reportedly placed from April 6, 2007, through January 31, 2011, and noted some
discrepancies. For example, the quantity of combination drugs ordered on November 10, 2010,
was not reported correctly by JSI. In addition, this order and another large order of nets were
not reported in DELIVER’s FY 2010 annual report, while USAID counted both of these orders in
FY 2010. For several other orders, the costs shown on the invoices did not agree with
DELIVER’s records. USAID/Mali reportedly reviews all orders quarterly and communicates
closely with JSI. The mission believes that JSI may be making mistakes or continuing to use
estimated figures. Nonetheless, the mission has agreed to look into the cause of these
discrepancies.

The audit team also noted that the mission’s filing of documentation on each DELIVER order
could be improved. Each order consists of the following elements: (1) order request, (2) order
changes or modifications (if needed), (3) final invoice, (4) tax exemption request and approval,
and (5) proof of transfer from USAID/Mali to the Ministry of Health. The current system for
retaining and filing these documents was inadequate, as some of the documentation described
above was missing or hard to locate, and some unrelated items from other activities were
included in these files. The DELIVER activity manager readily agreed to make changes to his
filing system.

Another factor that may have contributed to poor data quality was the absence of data quality
assessments. The mission had completed only one malaria-related data quality assessment for
the spraying activity since the inception of its malaria activities. Another assessment regarding
nets was reportedly conducted, but it consisted of only a few sentences and was not as
complete.



                                                                                              11
Finally, the mission was not making maximum use of site visits for improving the quality of data
reporting. While site visits were periodically performed, they were rarely documented, the
standard site visit template was not used, and the visits were not designed to verify the data
quality. In fact, only three malaria-related visits were documented to cover more than $25
million worth of malaria-related expenditures in the past 2 years. According to mission officials,
the failure to document site visits and key meetings resulted from being understaffed and not
sufficiently emphasizing documentation.

Inaccurate data can prevent management from making decisions effectively. To improve the
accuracy of reported results, we make the following recommendations.

      Recommendation 4. We recommend that USAID/Mali develop and implement a plan
      with Research Triangle Institute to record data accurately and minimize the possibility of
      human errors such as double counting.

      Recommendation 5. We recommend that USAID/Mali, in conjunction with Research
      Triangle Institute, establish and implement a plan to ensure that all spray operators are
      using a consistent definition of a structure when tallying results.

      Recommendation 6. We recommend that USAID/Mali, in conjunction with CARE, verify
      the malaria-related results in CARE’s FY 2010 annual report.

      Recommendation 7. We recommend that USAID/Mali work closely with John Snow Inc.
      to (1) ensure that it has accurately recorded, reported, and filed all orders that have been
      placed and (2) develop a plan to ensure that future discrepancies are avoided.

      Recommendation 8. We recommend that USAID/Mali complete required data quality
      assessments for all indicators reported in its annual performance plan and report.

      Recommendation 9. We recommend that USAID/Mali develop a procedure to
      document all site visits and require that visits include data quality testing and verification
      when possible.

Controls Over the Receipt and
Distribution of Nets Were Inadequate
and Inconsistent
The Government Accountability Office’s Standards for Internal Control in the Federal
Government10 requires the establishment of physical controls to safeguard vulnerable assets
such as inventory. Such assets should be counted periodically and reconciled with control
records to reduce the risk of errors, fraud, and misuse. All documentation and records should
be properly managed and maintained.

During visits to five community health facilities in three districts, the audit team observed the
following weaknesses and inconsistencies in procedures for receiving and distributing nets:

	 Documentation of the receipt of nets was not consistently retained and filed at the health
   facility. When nets were provided by PSI, a receipt was given to the facility, but when nets
10
     GAO/AIMD-00-21.3.1, November 1999.


                                                                                                       12
   were provided by the supervising district health facility to the community facility, no
   documentation was provided.

	 Some facilities documented and retained distributors’ requests for nets, but other facilities
   did not follow this procedure.

	 One facility required beneficiaries to sign a piece of paper acknowledging the receipt of a
   free net, but other facilities did not.

	 Stock cards tracking the movement of inventory were not always complete or accurate. A
   stock card at one facility showed a current inventory of 285 nets, yet only 80 were in stock.
   The stock card for this facility also did not have an explanation for the whereabouts of
   another 78 nets that were reported in stock on April 2009.

	 Two net distribution notebooks were kept at each facility to record the names of each
   beneficiary (one for pregnant women and one for infants). However, at one facility, the
   notebooks were not dated or numbered, making it difficult to determine when the
   beneficiaries received the nets and whether the distributions corresponded with the stock
   card. At another facility, the use of notebooks did not start until June 2009; prior to that
   date, it was difficult to determine who received the nets.

	 One facility updated the stock cards monthly even though nets were actually distributed
   about twice weekly. The other four facilities updated their stock cards more frequently.

	 Stock cards showed that all five facilities visited suffered from periodic stock outages lasting
   weeks at a time.

The problems identified can be attributed to poor management and supervision of the facilities
by the Ministry of Health. USAID, its partners, and other donors all recognize that the capacity
of the Ministry of Health can be improved. Establishing proper internal controls over distributing
and receiving nets will decrease the risk of missing or stolen nets. Therefore, we make the
following recommendations.

   Recommendation 10. We recommend that USAID/Mali develop and implement a plan
   to reinforce the skills of the staff at health-care facilities to enable them to maintain
   accurate inventory records and manage stock properly.

   Recommendation 11. We recommend that USAID/Mali develop and implement
   standard procedures for net distribution and receipt, and verify that the procedures are
   applied uniformly at all health facilities.

USAID’s Sponsorship of Spraying
Was Not Recognized
Title 22, Code of Federal Regulations, Part 226, states that “awareness of the generosity of the
American people is an important part of the U.S. Government’s public diplomacy strategy and a
critical part of the post 9/11 war against terrorism.” Accordingly, the branding and marking plan
for RTI’s spraying program identifies “people living in the households in the areas targeted for
spraying” as the program’s primary target audience for promoting and publicizing USAID
sponsorship. The Foreign Assistance Act and USAID’s ADS Chapter 320 provide further


                                                                                                13
requirements for branding and marking of USAID activities.

However, of the seven beneficiary families interviewed (representing a reported 127 people
protected) for the spraying program, only one person was able to identify the American people
as the source of funding for the program (and likely only because the recipient was
coincidentally a spray operator during the 2010 spray campaign).

The community health workers explained that they informed the beneficiaries prior to spraying
that the program was funded by the American people. They suspected, however, that the
recipients may have forgotten this by the time of the audit. Whether the beneficiaries forgot the
source of funding or the community health workers were not communicating it, neither the
American people nor USAID was recognized for these efforts.

USAID’s Web site states that “since 9/11, America's foreign assistance programs have been
more fully integrated into the United States' National Security Strategy. This elevation to the so-
called ‘third-D’ (development being added to diplomacy and defense) increased the need for
U.S. foreign assistance activities to be more fully identified in the host country as being . . . ‘from
the American People.’ We have been identified as ‘America's good-news story’ and have been
tasked to make our efforts more visible and better known in the countries where we work.”
When program beneficiaries do not recognize the source of the program’s funding, one of the
most important goals of U.S. foreign assistance is not achieved. USAID spent $4.85 million to
implement this program in 2009 and 2010 but appears to have received little or no recognition
from beneficiaries.

   Recommendation 12. We recommend that USAID/Mali develop and implement a plan
   with Research Triangle Institute to ensure that beneficiaries are aware that indoor
   residual spraying is provided by the American people.




                                                                                                    14
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Mali agreed with all 12 recommendations in the draft report. Final action has been
achieved for Recommendations 7, 9, and 10. Management decisions have been reached on
the remaining nine recommendations. Our evaluation of management comments is shown
below.

Recommendation 1. USAID/Mali agreed with the recommendation. The PMI team is already
working with the mission’s Health Office taskforce to address the issues raised in this
recommendation and expects the corrective actions to be fully completed by the next PMI
annual report. The target date for this planned action is March 31, 2012. Accordingly, a
management decision has been reached on this recommendation.

Recommendation 2. USAID/Mali agreed with the recommendation, and the mission Health
Office is revising its PMP to include and define additional indicators to better monitor PMI-
supported activities. The target date for completion is September 30, 2011. Accordingly, a
management decision has been reached on this recommendation.

Recommendation 3. USAID/Mali agreed with the recommendation and noted that the CARE
project soon will show results related to malaria prevention, including ownership and use of nets
by inhabitants of households visited. The target date for completion is September 30, 2011.
Accordingly, a management decision has been reached on this recommendation.

Recommendation 4. USAID/Mali agreed with the recommendation and has developed a plan
to address the problems with recording data and double counting of spray results. The target
date for implementation of the plan is June 30, 2011. Accordingly, a management decision has
been reached on this recommendation.

Recommendation 5. USAID/Mali agreed with the recommendation and has adopted a specific
definition for a “sprayable structure.” To further ensure spray agents and other spraying
implementers are using a consistent definition of a structure, stringent measures on supervision
and internal control will be reinforced. Supervisors will perform standard field checks of how
spray operators are counting structures and verify the integrity of the data entries. The target
date for implementation of the plan will be June 30, 2011. Accordingly, a management decision
has been reached on this recommendation.

Recommendation 6. USAID/Mali agreed with the recommendation. The CARE PKC chief of
party issued a memo instructing relevant subpartners to conduct a systematic review of home
visits results reported in 2010. The memo also addressed procedures to ensure, among other
things, reliability, availability, and quality of reported results. The review is already under way
and is scheduled to be completed by July 2011. Accordingly, a management decision has been
reached on this recommendation.

Recommendation 7. USAID/Mali agreed with the recommendation and has taken corrective
action. The contractor has produced documentation and analysis of the discrepancies identified
between records kept in Washington and those kept at USAID/Mali and has satisfactorily



                                                                                            15
explained all differences. In addition, the PMI team is adding a file on order changes and
modifications to its filing systems for current and future procurements of malaria commodities to
avoid future discrepancies. These actions constitute final action.

Recommendation 8. USAID/Mali agreed with the recommendation. The malaria indicator
targets will be revised and updated in the PMP, and a data quality assessment for each malaria
indicator will be conducted in compliance with ADS 203.3.8.3. The target date for completion is
September 30, 2011. Accordingly, a management decision has been reached on this
recommendation.

Recommendation 9. USAID/Mali partially agreed with the recommendation. USAID Mali’s
Mission Order on Framework and Procedures for Monitoring and Evaluation Programmatic
Performance (Series 2000/Order 2001 issued October 12, 2004) provides guidance on
preparing, conducting, documenting, and filing field visit findings. However, the mission states
that not all site visits are appropriate for data quality testing. The USAID Mali PMI team
recognizes the importance of appropriately documenting the project field visits and will test the
quality of data whenever the scope of the site visit allows. The team will document all future
field visits in conformity with the mission order; when feasible, the team will test the quality of
data. This constitutes final action on this recommendation.

Recommendation 10.          USAID/Mali agreed with the recommendation.           Through the
Strengthening Pharmaceutical Systems Project managed by Management Sciences for Health,
USAID is already working with the national system at all levels—from the health facility to the
district, to the region, and to the central departments—to establish or strengthen stock
management. USAID/ Mali’s front office and health officers are already actively advocating for
improved management of pharmaceuticals with other health partners, including U.N. entities.
These actions constitute final action.

Recommendation 11. USAID/Mali agreed with the recommendation. The mission has
conducted an assessment of the net distribution problems identified and will support the design
and implementation of a work plan based on the assessment recommendations. The target
date for completion is December 31, 2011. Accordingly, a management decision has been
reached on this recommendation.

Recommendation 12. USAID/Mali agreed with the recommendation. The mission will work
with RTI to develop and implement a comprehensive communication plan to increase the
awareness of beneficiaries that the indoor residual spraying of their houses is a generous effort
from the American people to support the national malaria control strategy. The target date for
completion is June 30, 2011. Accordingly, a management decision has been reached on this
recommendation.




                                                                                                16
                                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope

We conducted this audit in accordance with generally accepted government auditing
standards.11 Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions in
accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The objective of the audit was to determine whether USAID/Mali achieved its PMI goals of
preventing and treating malaria.

To implement the program, the mission worked with 15 prime partners. Those selected for audit
are shown in the following table.

                                               Audited Programs

                                                                             Expended for
                                                                               PMI in FYs      Task Order /
       Implementing Partner                Program Description
                                                                             2009 and 2010   Agreement Dates
                                                                                   ($)
                                   JSI’s DELIVER Project procures bed
                                   nets, combination drugs, preventive                          Task Order
     John Snow Inc. (JSI)                                                      8,658,156
                                   treatment, and other drugs for treating                    4/2007–4/2012
                                   severe malaria.
                                   PSI primarily transports nets for                           Cooperative
     Population Services
                                   distribution to targeted groups—infants     1,596,000       Agreement
     International (PSI)
                                   and pregnant women.                                       10/2008–9/2011
                                   RTI’s indoor residual spaying program
     Research Triangle Institute                                                                Task Order
                                   targets households in the Bla and           4,850,000
     International (RTI)                                                                      9/2009–9/2014
                                   Koulikoro Districts.
                                   The Keneya Ciwara II Program (PKC                           Cooperative
     CARE                          II) works to increase the use of health     2,650,000       Agreement
                                   services at community health centers.                     10/2008–9/2011


The audit focused on PMI activities occurring in FYs 2009 and 2010. USAID/Mali’s FY 2009
and 2010 obligations for PMI totaled $14.9 million and $14.5 million respectively. The mission
expended $13.7 million during FY 2009 and $11.6 million during FY 2010 for PMI activities.

In planning and performing the audit, the audit team assessed relevant controls used by the
mission to manage the program and ensure that it and its implementing partners were providing
adequate oversight of program activities. The assessment included controls related to whether
USAID had (1) reviewed progress and financial reports submitted by the implementing partners,
(2) conducted and documented periodic meetings with the implementing partners, (3) performed
and documented visits to the activity sites, and (4) developed and implemented policies and
procedures to safeguard the assets and resources of the activities. Additionally, the auditors

11
     Government Auditing Standards, July 2007 Revision (GAO-07-731G).


                                                                                                         17
                                                                                      Appendix I


examined the mission’s FY 2009 and 2010 annual self-assessment of management controls—
which the mission is required to perform to comply with the Federal Managers’ Financial
Integrity Act of 198212—to determine whether the assessments cited any relevant weaknesses.

Audit fieldwork was performed at USAID/Mali as well as at the implementers’ offices from
February 14 to March 4, 2011. The audit team made field trips to seven spray areas and five
health facilities in the regions of Segou and Koulikoro.

Methodology

To answer the audit objective, we reviewed the PMI data reported by USAID/Mali in FYs 2009
and 2010 as well as activities implemented by selected implementing partners. We met with the
PMI team in Bamako to gain an understanding of the four program activities selected for audit
and reviewed their corresponding agreements, progress reports, work plans, and reporting
tools. The four programs accounted for about 78 percent of the dollar value of the mission’s
malaria program portfolio during FYs 2009 and 2010. Furthermore, the programs contributed
significantly to PMI’s objective of preventing and treating malaria.

We reviewed applicable laws and regulations and USAID policies and procedures pertaining to
USAID/Mali’s PMI program, including ADS guidance, the USAID/Mali malaria operational plans
for FYs 2009 and 2010, and the Government of Mali’s 5-year malaria strategy. During site
visits, we interviewed implementing partner staff, doctors and health staff from the Government
of Mali’s Ministry of Health, community health workers, spray operators, and beneficiaries. We
also verified reported results, performed inventory counts on spraying and net commodities, and
checked to see whether activities were being monitored and evaluated as required.

The audit involved validating the reported results on selected key performance indicators and
conducting site visits to selected activities. In validating the program’s reported results, the
audit team focused on the data reported on the following eight performance indicators:

     Number of combination drugs purchased
     Number of RDTs purchased
     Number of nets purchased
     Number of nets purchased that were distributed
     Number of sulfadoxine-pyrimethamine tablets purchased
     Number of houses sprayed with spraying
     Number of residents of sprayed houses
     Number of people trained to deliver spraying

The scope of our testing was limited to validating the data reported on these indicators for
judgmentally selected sites: 16 facilities, which included spraying sites, warehouses, and health
centers in three of nine administrative regions in Mali (Segou, Koulikoro, and Bamako). The
sites chosen for review outside of Bamako were located in the only two regions where spray
activities had been implemented in 2009 and 2010. During the same trips, we were able to
meet with several PKC II community health workers and visit five community health facilities.
Because this testing was based on a judgmental rather than a statistical sample of indicators
and sites, the results and overall conclusions related to this analysis were limited to the items

12
     Public Law 97-255, as codified in 31 U.S.C. 3512.


                                                                                              18
                                                                                 Appendix I


tested and could not be projected to the entire audit universe. However, we believe that our
work provides a reasonable basis for our conclusions.




                                                                                         19
                                                                                       Appendix II



MANAGEMENT COMMENTS 




Regional Inspector General,
Dakar /Gerard Custer
                                                            June 2, 2011


Subject:       RIG Draft Report No. 7-688-11-00XP: Audit of USAID Mali Malaria Program


USAID/Mali Response:

Recommendation 1. We recommend that USAID/Mali (1) review its indicators closely to
ensure that the indicator definition and wording are consistent, (2) establish and update
targets for each indicator, and (3) report its results accurately based on the correct
reporting period in the mission’s performance plan and report, the President’s Malaria
Initiative annual report and the performance management plan.

USAID Mali Position regarding the recommendation: We agree.
The PMI team is already working with the Health Office M&E taskforce to address the issues
raised in this recommendation; the PMI Technical Guidance on M&E activities (last update
2011) provides the standard definition for malaria indicators to be used by the Mission. If
applicable, adaptation and changes will be made when further guidance are issued.
The USAID Mali health team Program Monitoring Plan (PMP) is under review, the malaria
indicator targets will be revised and updated during this process. Attention will be paid to ensure
that future reports have accurate results taking into account the PMI targets within the Health
Office PMP, the Mission Performance Plan Report based on FY, and the PMI annual report
based on calendar year.

The corrective actions are underway and will be fully completed by the next PMI Annual Report
(March 2012)

Recommendation 2. We recommend that USAID/Mali’s health team include other
performance indicators in the performance management plan that measure the achievements of
its malaria portfolio (in addition to those required by the President’s
Malaria Initiative).

USAID Mali Position regarding the recommendation: We agree.



                                                                                            20
                                                                                      Appendix II


As stated above, the Mission Health Office is revising its PMP. During this process other
additional indicators to measure progress from implementation of malaria activities will be
defined and included in the PMP to better monitor PMI supported activities. Special attention is
going towards achievements from behavior change communication activities currently
implemented by Keneya Ciwara II project, likely to continue in the future with other partners.

The corrective actions are underway and will be fully completed by September 2011.

Recommendation 3. We recommend that USAID/Mali require CARE to report results
on malaria-related indicators and targets included in the 2011 work plan.

USAID Mali Position regarding the recommendation: We agree.
The CARE PKC 2011 work plan focuses on BCC with 3 major activities: (1) home visits to
monitor availability of and promote appropriate use of bed nets, (2) mass communication around
routine and campaign distribution of bed nets, and (3) targeted BCC activities to promote
appropriate care seeking and compliance with ACT treatment, and promotion of intermittent
preventive treatment (IPTp). Sound and relevant indicators to monitor the type and number of
BCC activities are under discussion. By the time of the next quarterly report, the CARE project
will be able to show the results related to malaria prevention including nets ownership and nets
use by inhabitants of households visited.
The corrective actions are underway and will be fully completed by September 2011.

Recommendation 4. We recommend that USAID/Mali develop and implement a plan
with Research Triangle Institute to record data accurately and minimize the possibility of
human errors such as double counting.

USAID Mali Position regarding the recommendation: We agree. 

The PMI team discussed the recommendation with RTI team members who also agreed with the

recommendation and started addressing the need to minimize human errors in data recording and 

reporting. 

About resolving the compilation errors on the data collection forms:
During IRS, a spray team consists of six operators and one team leader. Each team leader is
responsible for monitoring the spray operation and how the spray operators fill their forms. At
the end of the work day, the team leader checks the entries completed by spray operators and
prepares a summary report from the 6 operators (Team leader’s summary report). In preparation
of the June 2011 campaign, during the training of trainers, great emphasis was made on data
quality; facilitators discussed the arithmetical addition errors witnessed last year on the daily
spray cards and compilation errors on the team leader summaries. For the 2011 IRS campaign,
efforts are underway to ensure that data will be captures by structure and not by compound. To
achieve this, daily spray cards will be the primary data source, not the leader summary forms. On
the daily spray card, each line (row) represents a structure’s information including: structure
number (a unique identifier); number of structures/houses within the household; and number of
structures/houses within households that were sprayed and number that were not sprayed,
including the reason that the structure/house was not sprayed. The row by row entries will
henceforth be directly entered into the Access database. The database has been developed in
such a way that it is able to auto-sum the entries for each spray operator daily performance.



                                                                                              21
                                                                                         Appendix II


About resolving the double counting errors:
Each structure will be identified in the database; using the unique identification number of each
structure, a control check has been put in place to prevent any double entry of a structure. In
case, a data clerk tries to re-enter information on an already entered structure, the number will
pop-up on the screen indicating that this structure code is already existing. In cases where mop-
up (deuxieme passage) takes place, no new records will be created in the database; a new option
has been integrated into the database that will allow the data clerk to find the old structure record
(premiere passage) by searching the database using the structure ID code and then updating its
status. This control is aimed at eliminating double entries at all costs.

The corrective actions have been taken as described here; IRS June Campaign will test the
efficacy of the measures and close the recommendation.

Recommendation 5. We recommend that USAID/Mali, in conjunction with Research
Triangle Institute, establish and implement a plan to ensure that all spray operators are
using a consistent definition of a structure when tallying results.

USAID Mali Position regarding the recommendation: We agree.
The PMI team discussed the recommendation with RTI team members who also agreed with the
recommendation and started addressing the issue of structure definition, referring to IRS M&E
standard operations current definition.
In the IRS M&E standard operating procedures document, RTI in conjunction with USAID/PMI
have adopted the following definition: A “sprayable structure” is a free-standing building in
which people sleep/spend a night and has sprayable surfaces (exceptions include structures with
porous wall made of bamboo or reeds or with tin walls etc.). However, PMI does not strive for a
common definition of structures across countries, but rather a common definition and
understanding of structures within a country. During IRS trainings, a special emphasis is and will
continue to be placed on operational definitions. In addition, discussions will revolve around the
different types of structures that may be encountered in the 3 project districts and practical
demonstrations of how to identify and count structures under the different scenarios presented
above. To further ensure Spray Agents and other IRS implementers are using a consistent
definition of a structure, stringent measures on supervision and internal control will be
reinforced. Supervisors will perform standard field level checks of how spray operators are
counting structures and verify the integrity of the data entries. The results from the supervision
checklist will be discussed during debriefing meetings and action points sent to the district
coordinators for follow up. RTI technical team will also conduct impromptu visits to reinforce
correct definition and interpretation and ensure the field teams are complying with IRS standard
operations requirements.

The corrective actions are being implemented during the preparation of the next campaign; IRS
June Campaign will test the efficacy of the measures to close the recommendation.

Recommendation 6. We recommend that USAID/Mali, in conjunction with CARE, verify
the malaria-related results in CARE’s FY 2010 annual report.

USAID Mali Position regarding the recommendation: We agree.



                                                                                                  22
                                                                                        Appendix II


USAID Mali PMI team discussed the recommendation with CARE Keneya Ciwara projet and
the design of corrective measure was immediately initiated by the project.
The CARE PKC Chief of Party instructed all NGOs and CSCOMs involved in the
implementation BCC/IEC activities and oversight of community relais to conduct a systematic
review of home visits results reported in 2010. The instruction memo was issued on May 19. In
addition, data recording booklets have been given to Community relais and their NGO
supervisors, at the same time, CSCOMs supervision teams have been given data compilation
registers.
In the instruction memo, the COP also listed the following measures:
     Start the review with the areas with the biggest data discrepancies;

      Ensure that all corrections are backed by reliable documentation;
      Correctly record all malaria related activities, including education talks during home
       visits;
      Facilitate the organization of relais’ monthly meetings in CSCOMs catchment areas, with
       special attention to those who don’t hold regular meetings;
      Supervisors must be more vigilant and check the quality of community animators
       /conseillers reports in relation with the volume of their activity;
      Set targets for each animator, each NGO and hold them accountable for the achievement
       of the targets, ensure availability and reliability of documentation of the results.

The review is already underway and is scheduled to be completed by July 2011.


Recommendation 7. We recommend that USAID/Mali work closely with John Snow Inc.
to (1) ensure that it has accurately recorded, reported, and filed all orders that have been
placed and (2) develop a plan to ensure that future discrepancies are avoided.

USAID Mali Position regarding the recommendation: We agree.
The Contractor was requested to produce documentation and research discrepancies on items
noted as having discrepancies. The documentation and analysis is attached and differences have
been satisfactorily explained. In addition, PMI team is adding a file on “order changes and
modifications” to its filing systems to clearly reflect the following five elements for current and
future procurements of malaria commodities:
     Order request from the GOM/NMCP and approved by the Mission PMI Advisor ;

      Order changes or modification as applicable; 

      Final invoice; 

      Tax exemption request and approval by the GOM/MOH; 

      Transfer documents from USAID to GOM/MOH. 


The corrective actions were undertaken; the recommendation can be closed now.

Recommendation 8. We recommend that USAID/Mali complete required data quality
assessments for all indicators reported in its annual performance plan and report.



                                                                                                23
                                                                                         Appendix II


USAID Mali Position regarding the recommendation: We agree.
As stated in the response to Recommendation #1, the USAID Mali health team PMP is under
review, the malaria indicator targets will be revised and updated during this process. Data quality
assessment for every malaria indicator will be conducted with strict application of ADS
203.3.8.3.

Data quality assessment for malaria indicators will be completed by September 2011.

Recommendation 9. We recommend that USAID/Mali develop a procedure to
document all site visits and require that visits include data quality testing and verification
when possible.
USAID Mali Position regarding the recommendation: We partially agree. 

USAID Mali Mission Order on Framework and Procedures for M&E Programmatic Performance 

(Series 2000 /Order 2001 issued October 12, 2004) provides guidance on preparing, conducting, 

documenting and filing field visits findings (see format attached). However, all site visits are not 

appropriate for data quality testing. 

The USAID Mali PMI team recognizes the importance of appropriately documenting the project 

field visits, and will test the quality of data whenever the scope of the site visit allows. 


The team will document all future field visits in conformity with the Mission Order; when

feasible, the team will test the quality of data. 

Date for completion: On-going. 


Recommendation 10. We recommend that USAID/Mali develop and implement a plan
to reinforce the skills of the staff at health-care facilities to enable them to maintain
accurate inventory records and manage stock properly.

USAID Mali Position regarding the recommendation: We agree.
Though this recommendation was based on observations from inventory records and stock
management of nets, the management response must take a more comprehensive view of stock
management.
Since 2008, the Mission is providing technical assistance to the MOH to improve the
management of the pharmaceutical system. However, the Mission is aware that the process will
take time to change long rooted practices of poor records keeping and poor stock management.
The temptation of rapidly creating an efficient but parallel system managed by project staff is out
of consideration, USAID support is aiming at creating a sense of ownership and building the
national capacity in the perspective of a long term solution, which requires enlisting support
from other health partners.
USAID support through the “Strengthening Pharmaceutical Systems” project managed by MSH
is already working with the national system at all levels from the health facility to the district, to
the region, and to the central departments to establish or strengthen existing elements of stock
management. USAID Mali front office and Health Officers are already active advocating for an
improved management of pharmaceuticals, with other health partners including UNICEF,
UNFPA, WHO, etc.

The corrective actions are underway and will continue during the next two years.



                                                                                                   24
                                                                                        Appendix II



Recommendation 11. We recommend that USAID/Mali develop and implement
standard procedures for net distribution and receipt, and verify that the procedures are
applied uniformly at all health facilities.

USAID Mali Position regarding the recommendation: We agree.
Nets distribution procedures vary with the source of nets. The diversity of bed nets donors goes
with lack of a coordinated procurement and distribution plan, bed nets distribution does not
follow the same channel as the drugs and other pharmaceutical commodities, in addition, nets are
heavy and bulky and the central medical stores (PPM) are not equipped for nets distribution.
To address the situation, in 2010 USAID Mali supported TA to assess existing nets distribution
practices. The assessment report highlighted the absence of coordination and identified three
major nets distribution schemes, all under the “push system”: from Bamako to Regions
(illustrated by GOM procured nets), from Bamako to Districts (illustrated by nets procured by
UNICEF), from Bamako to Districts accompanied with a small budget contribution to support
transportation to Health Facilities (illustrated by nets procured by PMI). A considerable number
of small quantity nets donations went from the donor to targeted health facilities. The report
drew recommendations on different scenarios of empowering the NMCP and PPM for better
coordination, improving nets distribution and stock management.

USAID Mali/ PMI will support the design and discussion of a work plan based on the assessment
recommendation before December 2011.

Recommendation 12. We recommend that USAID/Mali develop and implement a plan
with Research Triangle Institute to ensure that beneficiaries are aware that indoor
residual spraying is provided by the American people.

USAID Mali Position regarding the recommendation: We agree.
The US funded Indoor Residual Spraying (IRS) project is well known by officials from the
ministry of health, the ministry of environment, the elected officials and community leaders in
the regions and districts of intervention as a US government support to the GOM efforts to fight
malaria. Community health organizations in the targeted areas are aware of this important effort
of the USG and recognize the importance of the activity as a lifesaving intervention.
However, given the generally accepted belief among the less educated populations that every
development effort in their communities is a “gift from the highest authorities”, there is a need to
improve the awareness around USG source of support for current IRS activities.
USAID Mali mission will work with Research Triangle Institute International (RTI) to develop
and implement a comprehensive communication plan to increase the awareness of beneficiaries
that the Indoor Residual Spraying of their respective houses is a generous effort from the
American people to support the national malaria control strategy.

The corrective actions will start with the June 2011 IRS campaign.




                                                                                                 25
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
